program risk, risk assessments performed at the recipient level could enhance the Department’s
transparency and accountability framework, reduce the likelihood of making awards to high-risk
entities, and help to prioritize monitoring efforts. The Department should consider developing a
risk assessment instrument to perform in both the pre-award phase and throughout the recipient
performance period.

        If the Department develops an instrument for pre-award risk assessments, the Department
should consider the risk factors identified in the OMB Implementation Guidance, section 3.11, as
well as agency-specific risk factors. The instrument should include attributes such as whether
the applicant is suspended or debarred—to ensure awarding officials check this information, the
applicant’s audit history, recurrence of audit findings, and the status of corrective action plans.
The pre-award risk assessment instrument could also include an internal control questionnaire,
which allows users to assess the applicant’s administration and management systems. The pre-
award risk assessment can assist Department and bureau officials to evaluate whether to award
funding to an entity, determining the appropriate funding structure, determining the award
amount, and identifying recipients that could require more extensive monitoring and oversight.
For example, recipients without a long history of receiving federal funds might require more
extensive monitoring.

        If the Department and/or Bureaus complete risk assessments on recipients throughout the
award period—at least annually—it could help them to focus their monitoring efforts. When
designing the instrument, the Department should consider the risk factors identified in the OMB
Implementation Guidance, section 3.11, as well as agency-specific risk factors. The instrument
should include some of the attributes cited above (i.e., applicant’s audit history, recurrence of
audit findings, and the status of corrective action plans) in addition to attributes such as recipient
complexity and timeliness of single audit submissions. Certain “triggering events,” such as
changes in the recipient’s management structure or fraud/abuse allegations, could signal to the
office responsible for oversight a need for re-assessing the risk level. The Department should
align the extent of recipient monitoring with the final risk ratings. The recipient monitoring risk
assessment instrument should assist awarding officials in determining the types of monitoring
procedures that would be most effective for different recipients.

       With both risk assessments, to reduce user manipulation of the risk assessment inputs,
questions should require objective and quantifiable answers that can be statistically verified.

       We do not require an official response to this advisory, but we will post it on our website
(www.doioig.gov) and Recovery.gov. Information contained in this advisory may also be
included in our semi-annual reports to Congress. Please feel free to contact me if you have any
questions.

cc:    Acting Assistant Secretary – Policy, Management and Budget
       Director, Office of Financial Management
       Departmental GAO/OIG Audit Liaison
       Audit Liaison, Office of the Secretary




                                                                                                     2
  Report Fraud, Waste, Abuse ,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone:Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
             allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 4428 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free            800-424-5081
                  Washington Metro Area        703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
